Nos. 19-351, 18-1447

 

IN THE

Supreme Court of the United States

FEDERAL REPUBLIC OF GERMANY, ET AL., PETITIONERS,
Vv.

ALAN PHILIPP, ET AL.

REPUBLIC OF HUNGARY, ET AL., PETITIONERS,
Vv.

ROSALIE SIMON, ET AL.

ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE D.C. CIRCUIT

BRIEF FOR SOCIETE NATIONALE SNCF SA
AS AMICUS CURIAE IN SUPPORT OF NEITHER
PARTY AND SUPPORTING REVERSAL

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,672 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 11, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
